                                                            U.S. Department of Transportation
                                                                       Office of Public Affairs
                                                                            Washington, D.C.
                                                             www.dot.gov/affairs/briefing.htm

                                                                                          News

DOT 102-06                                                               Contact: Clayton Boyce
Friday, October 27, 2006                                                   Tel.: (202) 366-6874


 Transportation Secretary Peters Swears in New DOT Inspector General
Secretary of Transportation Mary E. Peters swore in Calvin L. Scovel III today as the
Department’s Inspector General.

“Cal is uniquely qualified to be a strong advocate for accountability, honesty and integrity,”
Secretary Peters said.

Mr. Scovel retired from the Marine Corps as a Brigadier General after 29 years service. He most
recently served as a Senior Judge of the United States Navy-Marine Corps Court of Criminal
Appeals. The court conducts appellate review of Navy and Marine Corps courts-martial as
required by the Uniform Code of Military Justice.

In his prior positions, Mr. Scovel often handled criminal and administrative cases that arose from
military Inspector General investigations. As a legal advisor for senior military commanders and
the Secretary of the Navy, Mr. Scovel reviewed Inspector General reports and assisted in
implementing their recommendations. He also served as the first counsel to the Inspector
General of the Marine Corps, and as Chief Defense Counsel of the Marine Corps.

Mr. Scovel is the sixth Inspector General in the Department’s history. Mr. Scovel received his
bachelor’s degree from the University of North Carolina and JD from Duke University. He also
received a master’s degree from the Naval War College. He lives in Montclair, Virginia, with
his wife, Cathy. They have two sons: Carey, a 2006 graduate of Elon University, and Thomas, a
midshipman at the U.S. Naval Academy.

The Office of Inspector General (OIG) was established by law in 1978 to provide the Secretary
and Congress with objective and independent reviews of the efficiency and effectiveness of
Department of Transportation (DOT) operations and activities. The OIG carries out its mission
by issuing audit reports, evaluations, and management advisories with findings and
recommendations to improve program delivery and performance. By statute, the Inspector
General also conducts investigations into whether Federal laws and regulations were followed
and must report suspected civil and criminal violations to the Attorney General.


                                               ###
